September 29, 2000

DEBORAH K. WILLHITE
SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS
 AND PUBLIC POLICY

GARY A. STONE, SR. 

MANAGER, STAMP FULFILLMENT SERVICES 


SUBJECT:	 Audit Report - Review of the Stamp Fulfillment Services Performance
          Measures (Report Number MK-AR-00-001)

This report presents the results of our review of the Stamp Fulfillment Services
performance measures (Project Number 00RA056RG000). The report responds to a
request from the manager, Stamp Services to review the performance measures.

Our audit revealed that the performance measures were generally consistent with
industry standards and allowed an accurate assessment of fulfillment service
operations. We identified opportunities to improve both the order entry and customer
service areas of the fulfillment process. In addition, we noted that fulfillment service
shipping times were better than industry standards; however, the fees charged for
shipping and handling did not cover their costs. The report includes five
recommendations to address these issues. Management generally agreed with the
intent of our recommendations and has initiatives in progress, completed or planned
addressing the issues in this report. Management’s comments and our evaluation of
these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Larry Chisley, director of Marketing, or me at
(703) 248-2300.



Debra S. Ritt
Acting Assistant Inspector General
 for Business Operations

Attachment
cc: Azeezaly S. Jaffer
    James C. Tolbert
    John R. Gunnels
Review of the Stamp Fulfillment Services                          MK-AR-00-001
 Performance Measures


                                    TABLE OF CONTENTS
Executive Summary
                                                    i

Part I

Introduction

   Background 	                                                      1

   Objective, Scope, and Methodology	                                2

   Prior Audit Coverage	                                             2


Part II

Audit Results

   Fulfillment Process                                               4

      Order Entry                                                    5

      Customer Service                                               6

   Recommendations                                                   7
   Management’s Comments                                             7

   Evaluation of Management’s Comments                               8


   Shipping and Handling                                             9

   Recommendation                                                    10 


Appendix A.	 Statistical Analysis of Stamp Fulfillment Services      12

             Shipping and Handling


Appendix B.	 Management’s Comments                                   13 

Review of the Stamp Fulfillment Services
 Performance Measures                                                              MK-AR-00-001


                                   EXECUTIVE SUMMARY
 Introduction 	                 We completed an audit to determine whether performance
                                measures established by Postal Service Stamp Fulfillment
                                Services officials were consistent with industry standards
                                and allowed for an accurate assessment of fulfillment
                                service operations. This audit was initiated in response to a
                                request from the manager, Stamp Services.

 Results in Brief	              Our audit revealed that the performance measures
                                established by Stamp Fulfillment Services officials were
                                generally consistent with industry standards and allowed for
                                an accurate assessment of fulfillment operations. However,
                                we identified opportunities to improve performance in both
                                the order entry and customer service processing areas.

                                In order entry, although performance goals were being met,
                                we determined that these goals did not measure up to
                                industry standards. This occurred because the order entry
                                system and the automated fulfillment system were not
                                integrated, which increased the time needed to process
                                customer orders. In addition, there was a lack of
                                consistency in the printing of order forms, which affected the
                                ability of order entry and process employees to scan these
                                forms. Also, employees had been given responsibilities
                                which had no relationship to the order entry process.

                                Although the goals in the customer service area were
                                consistent with industry standards, customer service
                                representatives did not have the access to information
                                needed to assist customers in a more timely manner.

                                Finally, we noted that fulfillment service shipping times were
                                better than industry standards; however, the fees charged
                                for shipping and handling did not cover their costs. Over the
                                period from fiscal year 1999 through June 2000, this had
                                resulted in the Postal Service forgoing about $9 million in
                                revenue. If Postal Service officials charged the proper rate
                                for shipping, they could increase revenue by about
                                $6 million per year.




                                                 i
Review of the Stamp Fulfillment Services
 Performance Measures                                                             MK-AR-00-001




 Summary of                     We recommend that Postal Service officials establish order
 Recommendations                entry processing goals, which at least meet industry
                                standards, and take steps to more efficiently process
                                orders; expand customer service representatives access to
                                customer accounts; and increase shipping charges to at
                                least cover costs.

 Summary of                     Management disagreed with our recommendation to
 Management’s                   establish order entry goals equivalent to industry standards
 Comments                       however; management’s alternative solution to discontinue
                                lockbox operations, mail orders directly to Stamp Fulfillment
                                Services, and to scan and download orders meets the intent
                                of our recommendation.

                                Management agreed with our recommendations to integrate
                                the order entry with the Automated Fulfillment Equipment
                                System and to analyze order entry staff duties and to
                                reassign duties not related to the order entry process.
                                Management also agreed to provide customer service
                                representatives with the appropriate security clearances.

                                Management partially agreed with our recommendation to
                                reevaluate shipping and handling charges. Management
                                stated that a graduated scale is appropriate for non-
                                philatelic products. The fee charged for shipping stamps
                                and stamp products needs to be studied. Management
                                stated that an analysis of shipping and handling charges will
                                be completed and a decision will be reached at the
                                conclusion of that study.

                                Management’s comments in their entirety are included in
                                Appendix B of this report.

 Overall Evaluation of          Although management disagreed with our first
 Management’s                   recommendation and partially agreed with our fifth
 Comments                       recommendation, the proposed alternate solution meets the
                                intent of our recommendations. Consequently, we will not
                                pursue resolution on these recommendations at this time.
                                Management’s planned actions or actions taken on the
                                remaining three recommendations are responsive to our
                                recommendations.




                                                 ii
Review of the Stamp Fulfillment Services
 Performance Measures                                                                                                  MK-AR-00-001


                                           INTRODUCTION
 Background 	                    The Postal Service Stamp Fulfillment Services, located in
                                 Kansas City, Missouri, receives and fills philatelic orders.
                                 Stamp Fulfillment Services receive orders through various
                                 channels including mail orders, phone orders, and internet
                                 orders via Stamps Online. Prior to 1997, the fulfillment
                                 services operated using manual processes with little
                                 automated support and outdated machinery. During this
                                 period, the average processing time for orders ranged from
                                 10 to 25 days.

                                 In 1996, the Board of Governors approved $37 million for a
                                 Business Process Reengineering Project that included the
                                 purchase of an automated fulfillment equipment system and a
                                 120,000 square-foot expansion of operations. During 1997,
                                 fulfillment services was changed from a manual to an
                                 automated order fulfillment process. Since the automation,
                                 average process times have decreased significantly. As of
                                 June 2000, processing times ranged from less than 1 day to
                                 14 days. In addition, labor hours and overtime have
                                 decreased. Furthermore, over the past four years, gross
                                 revenue less returns has steadily increased from
                                 $60.5 million in 1996 to $88.0 million in 1999. Fiscal year
                                 (FY) 2000 revenues are projected to reach $100 million. The
                                 chart below illustrates the steady increase in revenues.


                                                        FY 1996 to AP 10 FY 2000 Gross Revenue
                                                            Less Returns & Total Expenses

                                                       100                                      88.084
                                                                                                           79.818
                                                        80                                                            Gross
                                                                          62.156     64.183
                                            $ Amount




                                                             60.502
                                                                                                                      Revenue Less
                                                        60                                                            Returns
                                                        40                                                            Tota l
                                                                                       25.165     25.470
                                                                            22.164                           19.655   Expenses
                                                                 18.080
                                                        20
                                                         0
                                                             1996 1997 1998 1999 2000*
                                                                                      Year

                                 *The information for FY 2000 is through June 2000.

                                 At any given time, Stamp Fulfillment Services, has
                                 approximately $500 million in stamp inventory. In FY 1999,
                                 Stamp Fulfillment Services staff processed and shipped over



                                                             1
Review of the Stamp Fulfillment Services
 Performance Measures                                                              MK-AR-00-001


                                 2 million orders valued at approximately $92.5 million in gross
                                 revenue. In addition to philatelic orders, Stamp Fulfillment
                                 Services staff processed approximately 260,000 Personalized
                                 Envelope Program orders valued at over $81 million.

                                 In the mid 1990’s, Stamp Fulfillment Services officials
                                 benchmarked with other fulfillment companies to establish
                                 reasonable performance measures against which fulfillment
                                 service operations could be assessed. The performance
                                 measures consisted of turnaround times for the entire
                                 fulfillment process as well as time goals for each area. These
                                 performance measures are currently being used by managers
                                 to monitor performance and improve productivity, and are
                                 reevaluated on a yearly basis. Performance measures are
                                 posted in each department to inform employees of their goals
                                 and to show current performance.

 Objective, Scope, and           This audit was conducted in response to a request from the
 Methodology                     manager, Stamp Services. The objective of the review was
                                 to determine whether established performance measures
                                 were consistent with industry standards and allowed for an
                                 accurate assessment of Stamp Fulfillment Services
                                 operations.

                                 We interviewed relevant officials at Stamp Fulfillment
                                 Services and Postal Service Headquarters; benchmarked
                                 fulfillment service performance against performance
                                 measures of other judgmentally selected fulfillment service
                                 companies, and analyzed data provided by Stamp Fulfillment
                                 Services staff.

                                 This audit was conducted from May through September 2000
                                 in accordance with generally accepted government auditing
                                 standards and included such tests of internal controls, as
                                 were considered necessary under the circumstances. We
                                 discussed our conclusions and observations with appropriate
                                 management officials and included their comments, where
                                 appropriate.

 Prior Audit Coverage            We issued a prior report, entitled Kansas City Fulfillment
                                 Services Center, on March 30, 1998. The objective of that
                                 review was to obtain an overview of the services provided by
                                 Stamp Fulfillment Services in Kansas City, Missouri. As a
                                 result of the review, we suggested renovation of the camera
                                 monitoring station be completed to provide appropriate



                                                 2
Review of the Stamp Fulfillment Services
 Performance Measures                                                            MK-AR-00-001



                                 security for the facility. Postal Service management agreed
                                 with this suggestion and has taken action to resolve the
                                 issue.




                                                3
Review of the Stamp Fulfillment Services
 Performance Measures                                                                     MK-AR-00-001


                                           AUDIT RESULTS
                                Our audit revealed that performance measures established
                                by Stamp Fulfillment Services were generally consistent
                                with industry standards and allowed for an accurate
                                assessment of fulfillment service operations. We did,
                                however, identify opportunities to improve on both the order
                                entry and customer service processing areas. In addition,
                                we noted that fulfillment service shipping times were better
                                than industry standards; however, the fees charged for
                                shipping and handling did not cover costs.

 Fulfillment Process 	          Fulfillment service operations were judged based on the
                                maximum turnaround time from receipt of order to shipment.
                                The goals for turnaround time were dependent on the type
                                of order: 11 days for regular catalog orders; 24 hours for
                                telephone orders; and 40 hours for Internet orders. As
                                shown in the table below, Postal Service goals for product
                                turnaround used by Stamp Fulfillment Services for Internet
                                and telephone orders were consistent with goals used by
                                those companies; however, goals for catalog orders were
                                not consistent with the companies.

                                          Comparison of Postal Service Fulfillment Services to
                                                         Industry Standards
                                                        Postal Service Goals Industry Standards
                                 Catalog                11 days                  36 hours – 12 days
                                 Telephone              24 hours                 24 hours – 5 days
                                 Internet               40 hours                 24 hours to 5 days

                                As of June 2000, Stamp Fulfillment Services was meeting or
                                exceeding two of their turnaround goals, telephone
                                (21 hours) and Internet (38 hours), but falling short on the
                                catalog orders (14 days). This occurred because orders
                                placed by Internet or telephone were sent directly to the
                                automated fulfillment equipment system for processing.
                                When ordering through the catalog, however, customers
                                sent their order forms to a bank in Philadelphia,
                                Pennsylvania. The bank was responsible for clearing all
                                check payments and batching orders to send to Stamp
                                Fulfillment Services. All orders were suppose to be sent to
                                Kansas City within 48 hours
                                .




                                                   4
Review of the Stamp Fulfillment Services
 Performance Measures                                                                  MK-AR-00-001




    Order Entry	                    Performance measures for order entry consisted of order
                                    processing turnaround times for the various products and
                                    programs based on the date the order was received by the
                                    bank to the date the order was entered for fulfillment. The
                                    order processing goal was six days maximum for
                                    turnaround time, which Stamp Fulfillment Services was
                                    meeting as of June 2000. However, the goal for this area
                                    was not consistent with industry standards for order entry
                                    processing. During our benchmarking, we noted the
                                    average order entry time for the companies reviewed1 was
                                    24 hours. The result of longer order entry times was an
                                    overall increase in the time needed to fill orders at Stamp
                                    Fulfillment Services.

                                    One cause of the long turnaround time within order entry
                                    was the lack of computer system integration. Order entry
                                    personnel scanned or keyed in the order to the order entry
                                    system, but that system was not integrated with the
                                    automated fulfillment equipment system used to fill the
                                    majority of orders. When the automated fulfillment
                                    equipment system was originally purchased, Stamp
                                    Fulfillment Services officials had a contract with a computer
                                    firm to develop an integrated computer system linking all
                                    aspects of the fulfillment process. The company, however,
                                    could not meet all of the contract requirements, and Stamp
                                    Fulfillment Services terminated the contract.

                                    Because of the lack of system integration, the order entry
                                    system was downloaded into the automated fulfillment
                                    equipment system once a day in the afternoon. Any orders
                                    entered after that time were held in the computer until the
                                    next day when another download was performed. The
                                    delay resulted in an additional day of processing time for
                                    order entry. We noted that Stamp Fulfillment Services is
                                    working with a new contractor to integrate the systems.
                                    However, until this integration is completed, if additional
                                    download times are added the amount of processing time
                                    lost waiting for a single download would be reduced.




1
    The three companies used in the benchmarking were selected judgmentally.




                                                         5
Review of the Stamp Fulfillment Services
 Performance Measures                                                             MK-AR-00-001



                                Additional order entry delays were caused by problems with
                                scanning order forms received from a bank in Philadelphia.
                                These forms were either scanned or manually keyed into
                                the order entry system. For past catalogs, order entry staff
                                had problems with the scanning of the order form, which
                                caused orders to be primarily keyed into the system
                                manually, which lengthened the order processing time.

                                Stamp Fulfillment Services officials believed that scanning
                                problems were due to the use of multiple printers to print
                                order forms. For instance, catalogs were distributed
                                quarterly and until the end of 1999, a different company
                                printed each catalog and the accompanying order form.
                                The constant changing of catalog printers created an
                                inconsistent order form that varied in their ability to be
                                scanned into the order entry system. In 1999, the contract
                                for printing the catalog was awarded to one printer. Since
                                that time the order form had been more consistent, allowing
                                order entry to primarily scan rather than manually key in the
                                orders, which improved order processing times. As of
                                June 2000, the turnaround times for scanned orders was
                                four days compared with seven days for manual keying.

                                Another cause of the long processing time was the delay
                                that occurred at the beginning of the order entry process
                                with the bank in Philadelphia, typically one to two days.
                                Fulfillment services had no control over this delay since the
                                contract with the bank was a national Postal Service
                                contract. Yet another cause of delays was that ancillary
                                duties, such as credit card verification, entering
                                Personalized Envelope Program orders, and completing
                                budget forms that had been imposed on order entry staff
                                which added to the extended turnaround time for processing
                                orders.

 Customer Service 	             Performance goals for customer service were supposed to
                                respond to correspondence within seven days, correct bad
                                addresses within five days, and process returned stock and
                                refunds within five days, all of which were consistent with
                                industry standards. As of June 2000, customer service was
                                not meeting most of its goals, averaging 23 days for
                                correspondence, 7 days for bad addresses, and 20 days for
                                returned stock.




                                                 6
Review of the Stamp Fulfillment Services
 Performance Measures                                                              MK-AR-00-001



                                When benchmarking customer service departments, we
                                noted that the industry standard was that all customer
                                service representatives from the benchmarked companies
                                had the ability to access, alter, or cancel customer orders
                                and accounts for more efficient and timely service.
                                However, the customer service representatives at Stamp
                                Fulfillment Services did not have this ability. Instead,
                                customer service representatives wrote down changes and
                                took them to order entry for reprocessing, causing delays in
                                handling customer problems.

 Recommendation 	               We offer the following recommendations:

                                The manager, of Stamp Services should:

                                1. Establish order entry goals that are at least equivalent to
                                   industry standards.

 Management’s                   Management disagreed with this recommendation. Under
 Comments                       the current order entry system, goals equivalent to industry
                                standards are not feasible, however, management
                                suggested possible solutions to the order entry problem. An
                                analysis of these solutions will be performed by Postal
                                Service management to determine which alternative would
                                best facilitate establishment of the recommended goals.

 Recommendation                 2. Continue working to create a computer system that
                                   integrates order entry with the automated fulfillment
                                   equipment system; however, in the interim, increase the
                                   number of daily downloads from order entry to the
                                   automated fulfillment equipment system to at least two
                                   per day.

 Management’s                   Management concurred with this recommendation. They
 Comments                       stated that the number of downloads from order entry to the
                                automated fulfillment equipment system will be increased to
                                two per day as of October 1, 2000. Management also
                                explained that on August 31, 2000 a contract was approved
                                to complete the integration of the automated fulfillment
                                equipment system, inventory management, and order entry.
                                Integration is scheduled to be completed on February 28,
                                2001.




                                                 7
Review of the Stamp Fulfillment Services
 Performance Measures                                                              MK-AR-00-001




 Recommendation                 3. Perform an analysis to determine the amount of time
                                   ancillary duties are detracting from the core duties of
                                   order entry staff and assess the merits of eliminating or
                                   reassigning ancillary duties to improve fulfillment
                                   process times.

 Management’s 	                 Management concurred with this recommendation.
 Comments 	                     According to management, an analysis of duties will be
                                completed by November 1, 2000, and any duties
                                determined not to be a part of the order entry process will
                                be reassigned to the appropriate unit.

 Recommendation                 4. Provide customer service representatives with the
                                   security clearances needed to alter customer accounts
                                   to provide more timely and accurate service.

 Management’s                   Management concurred with this recommendation. They
 Comments                       stated that security clearances have been provided to all
                                customer service representatives.

 Evaluation of                  Although management disagreed with our first
 Management’s                   recommendation, the proposed alternate solution meets the
 Comments                       intent of our recommendation. We will not pursue resolution
                                on this recommendation at this time. Management’s
                                planned actions or actions taken on the remaining three
                                recommendations are responsive to our recommendations.




                                                 8
Review of the Stamp Fulfillment Services
 Performance Measures                                                                              MK-AR-00-001




    Shipping and                  Stamp Fulfillment Services staff shipped all packages
    Handling                      Priority Mail deliverable in two to three days, which was
                                  better than industry shipping standards. Industry shipping
                                  standards range from 3 to 14 days. We noted that
                                  packages from the private companies were sent via
                                  standard Parcel Post, although expedited services were
                                  available at an additional cost.

                                  While examining these shipping performance measures, we
                                  noted that although Stamp Fulfillment Services staff shipped
                                  all packages Priority Mail, customers were only charged a
                                  $1.00 shipping and handling fee instead of the standard
                                  minimum charge of $3.20. We benchmarked shipping and
                                  handling fees against ten fulfillment companies, as well as
                                  one Postal Service mail order program. The average
                                  shipping and handling fee for the private companies was
                                  $4.44 for packages shipped standard Parcel Post. The
                                  Postal Service mail order program, the Personalized
                                  Envelope Program, also shipped all orders Priority Mail, but
                                  charged its customers the full $3.20 for shipping and
                                  handling.

                                  Thus, the Postal Service was absorbing the difference
                                  between the $3.20 Priority Mail rate and the $1.00 shipping
                                  and handling fee charged by Stamp Fulfillment Services
                                  officials. Stamp Fulfillment Services staff shipped about
                                  4.1 million packages from September 1998 through June
                                  2000. Using the $2.20 ($3.20 - $1.00) difference in shipping
                                  and handling charges, we determined that fulfillment
                                  services had forgone about $9 million in shipping and
                                  handling revenues during this period.2

                                  Prior to 1995, the fee for shipping and handling charged by
                                  Stamp Fulfillment Services was $.50 for all standard
                                  packages mailed within the United States. In a January
                                  1995 letter to the postmaster general, the manager, Stamp
                                  Services noted there had been no increase in the shipping
                                  and handling charges for over 20 years. In addition, the
                                  letter noted a net loss was occurring between the difference
                                  in Priority Mail rate and the actual charge for shipping. The
                                  total loss during FY 1994 was approximately $1.4 million.

2
 The total amount was calculated based on the assumption that all orders were standard orders shipped Priority
Mail within the United States in a single envelope/package.




                                                        9
Review of the Stamp Fulfillment Services
 Performance Measures                                                             MK-AR-00-001


                                In 1995, Postal Service management benchmarked
                                fulfillment service shipping fees against fees charged by
                                other fulfillment operations and created a graduated
                                shipping and handling fee schedule based on order dollar
                                value. The minimum shipping charge in this schedule was
                                $3.20 to cover the cost of shipping Priority Mail. In the
                                spring of 1997, Stamp Fulfillment Services officials reduced
                                shipping and handling fees to a flat rate of $1.00 for all
                                standard orders shipped within the United States, in
                                response to complaints from collectors.

                                If Stamp Fulfillment Services continues to charge $1.00 per
                                order for packages shipped Priority Mail, the Postal Service
                                will continue to forgo shipping and handling revenue. Using
                                shipping data from September 1998 through June 2000, our
                                statistician calculated the Postal Service could increase
                                revenue by approximately $29 million over the next
                                five years, if shipping and handling charges were increased
                                to $3.20, the normal cost of Priority Mail. Estimated savings
                                is detailed in Appendix A.

 Recommendation 	               We recommend the senior vice president, Government
                                Relations and Public Policy:

                                5. Reevaluate shipping and handling charges from Stamp
                                   Fulfillment Services to better align with industry
                                   standards and, at a minimum, cover the $3.20 cost of
                                   shipping Priority Mail.

 Management’s                   Management partially concurred with this recommendation.
 Comments                       Management agreed that a graduated scale should be used
                                in calculating the shipping and handling costs for non-
                                philatelic items from Stamp Fulfillment Services. However,
                                they stated that the issue of the fee charged for stamps and
                                stamp products requires further study before a decision can
                                be made. Management stated that they would consider all
                                of the information and analysis provided in the OIG report
                                when making their decision regarding the shipping and
                                handling costs.

 Evaluation of                  Management has stated that an analysis of shipping and
 Management’s                   handling costs will be performed. At the conclusion of this
 Comments                       study a decision will be made regarding the cost of shipping
                                and handling of philatelic products. We consider
                                management’s planned actions responsive to the intent of



                                                10
Review of the Stamp Fulfillment Services
 Performance Measures                                                           MK-AR-00-001


                                our recommendation and will not pursue resolution on this
                                recommendation at this time.




                                                11
Review of the Stamp Fulfillment Services
 Performance Measures                                                                                                                 MK-AR-00-001


                                                                    APPENDIX A

                       STATISTICAL ANALYSIS OF STAMP FULFILLMENT SERVICES
                                     SHIPPING AND HANDLING

We analyzed the actual number of orders shipped over the last 16 accounting
periods (AP). We considered both the average over the period and a least squares
method straight line fit (Excel, “Trend” function). From each of the two approaches, we
extrapolated the number of orders for the next five years. Both methods predicted a
five year total of approximately 13 million orders. At an additional $2.20 per order, we
calculated an additional five-year revenue total of approximately $29 million.1 Both
methods assume that the number of orders follow current trends and is not adversely
affected by any increased shipping cost.


                                                       Stamp Fulfillment Services

                       350,000
      Orders Shipped




                       300,000
                       250,000
                       200,000
                       150,000
                       100,000
                        50,000
                             0
                                   899

                                         999

                                               1099

                                                      1199

                                                             1299

                                                                      1399

                                                                             100

                                                                                    200

                                                                                            300

                                                                                                     400

                                                                                                            500

                                                                                                                   600

                                                                                                                          700

                                                                                                                                800

                                                                                                                                      900

                                                                                                                                            1000
                                                                                    AP&FY

                                                                    # Orders Shipped              average         trend




                                 Annual Order Quantity                                                              Annual Order Quantity
 Year ending                            (Trend)                                           Year ending                    (Average)

    AP10-01                                     2,655,651                               AP10-01                                        2,587,036
    AP10-02                                     2,683,097                               AP10-02                                        2,587,036
    AP10-03                                     2,710,543                               AP10-03                                        2,587,036
    AP10-04                                     2,737,989                               AP10-04                                        2,587,036
    AP10-05                                     2,765,435                               AP10-05                                        2,587,036
5-yr total orders                              13,552,716                           5-yr total orders                                 12,935,179




1
    The calculated revenue was $28.6 million, rounded up to $29 million.




                                                                               12
Review of the Stamp Fulfillment Services
 Performance Measures                                  MK-AR-00-001


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                           13
Review of the Stamp Fulfillment Services
 Performance Measures                           MK-AR-00-001




                                           14
Review of the Stamp Fulfillment Services
 Performance Measures                           MK-AR-00-001




                                           15
